      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                         Washington, D.C. 20201




March 25, 2010

TO:           Charlene Frizzera
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Daniel R. Levinson/
              Inspector General


SUBJECT:      Review of the Hurricane Katrina Health-Care-Related Professional Workforce
              Supply Grant for the Greater New Orleans Area (A-06-08-00026)


Attached, for your information, is an advance copy of our final report on the Hurricane Katrina
health-care-related professional workforce supply grant for the Greater New Orleans area. We
will issue this report to the Louisiana Department of Health and Hospitals within 5 business
days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Patricia Wheeler at (214) 767-6325 or through email at Trish.Wheeler@oig.hhs.gov. Please
refer to report number A-06-08-00026.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242

March 31, 2010

Report Number: A-06-08-00026

Ms. Gerrelda Davis
Director
Bureau of Primary Care and Rural Health
Louisiana Department of Health and Hospitals
P.O. Box 3118
Baton Rouge, Louisiana 70821-3118

Dear Ms. Davis:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of the Hurricane Katrina Health-Care-Related
Professional Workforce Supply Grant for the Greater New Orleans Area.” We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact John Price, Senior Auditor, at (225) 389-0406, extension 30, or through email at
John.Price@oig.hhs.gov. Please refer to report number A-06-08-00026 in all correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Gerrelda Davis


Direct Reply to HHS Action Official:

Mr. Rodney Benson
Director
Office of Acquisition and Grants Management
Centers for Medicare & Medicaid Services
Mail Stop C2-22-08
7500 Security Boulevard
Baltimore, Maryland 21244
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




 REVIEW OF THE HURRICANE KATRINA
HEALTH-CARE-RELATED PROFESSIONAL
 WORKFORCE SUPPLY GRANT FOR THE
   GREATER NEW ORLEANS AREA




                         Daniel R. Levinson
                          Inspector General

                            March 2010
                           A-06-08-00026
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov



Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

As authorized by section 6201(a)(4) of the Deficit Reduction Act of 2005, the Centers for
Medicare & Medicaid Services (CMS) awarded the Louisiana Department of Health and
Hospitals, Bureau of Primary Care and Rural Health (the Bureau), a Professional Workforce
Supply Grant (the grant) to restore access to health care in communities impacted by Hurricane
Katrina. The $50 million grant funds payments to licensed health care professionals for retention
and recruitment and covers the period March 1, 2007, through September 30, 2012.

Pursuant to the terms of the grant, funds are to be distributed in one-time payments to individual
practitioners based on the incentive options they choose. The incentives offered are payments
for student loans, of malpractice insurance premium expenses, for contract execution (sign-on
bonuses), of income guarantees, of health information technology continuing education
expenses, and of relocation expenses. Practitioners may choose more than one incentive option
and receive a payment not to exceed the limits set forth in the grant for each practitioner type.
Interested practitioners are required to submit applications for funding and sign contracts
agreeing to a 3-year term of service in the Greater New Orleans area.

OBJECTIVES

Our objectives were to determine (1) whether the Bureau awarded funds in accordance with the
grant terms and (2) the amount of grant funds distributed to awardees.

SUMMARY OF FINDINGS

We are not able to express an opinion on $25,999,330 that the Bureau awarded during the period
March 1 through December 31, 2007, because we discovered after our fieldwork was complete
that practitioner contracts may have been improperly signed. Apart from the possibility of
improper signatures, we found that, of the $5.3 million the Bureau awarded to 100 sampled
awardees during the period March 1 through December 31, 2007, $1,435,000 was not awarded in
accordance with the grant terms to 20 awardees. The Bureau awarded grants of:

      $195,000 to 3 ineligible awardees and

      $1,240,000 to 17 awardees without ensuring that they were eligible to receive the awards.
       (See Appendix C for details of these errors.)

These errors occurred because the Bureau did not have policies and procedures or did not follow
its existing policies and procedures to ensure that applicants were eligible to receive the grant
funds.

Based on our sample results, we estimated that the Bureau did not award $5,813,418 of grant
funds to 85 awardees in accordance with the grant terms for the period March 1 through
December 31, 2007. At the time of our audit, not all awardees had received grant funds. Of the


                                                 i
$5.3 million in our sample, $2.2 million had been distributed as of February 28, 2008. From this
amount, the Bureau had distributed to 12 awardees a total of $945,000 in awards that were not
made in accordance with the grant terms.

RECOMMENDATIONS

For the $1,435,000 of grant awards that were not awarded in accordance with the grant terms, we
recommend that the Bureau cancel the undistributed awards and credit the grant account for
distributed awards:

      For the $195,000 in grant funds awarded to three ineligible awardees, we recommend that
       the Bureau:

       o credit the grant account for the $165,000 in awards it distributed to two of the three
         and

       o cancel the undistributed award for $30,000 it made to one of the ineligible awardees
         or credit the $30,000 to the grant account if the Bureau has distributed this award.

      For the $1,240,000 in grant funds awarded to the 17 sampled awardees whose eligibility
       was not verified, we recommend that the Bureau:

           o credit the grant account for the $780,000 it awarded and distributed to 10
             individuals and

           o cancel the undistributed awards related to the $460,000 it awarded to 7
             individuals and credit the grant account for the distributed awards.

For the remaining 686 awardees in our sampling frame, the 119 awardees who were not in our
sampling frame, and all awards that were made subsequent to our audit period, we recommend
that the Bureau determine:

      whether awardees were eligible so that undistributed awards to ineligible awardees can be
       cancelled and distributed awards to ineligible awardees can be credited to the grant
       account and

      whether funds were awarded in accordance with grant terms so that undistributed awards
       that were not made to awardees in compliance with grant terms can be cancelled and
       distributed awards that were not made to awardees in compliance with grant terms can be
       credited to the grant account.

Additionally, we recommend that the Bureau strengthen its policies and procedures to ensure that
all of the grant’s eligibility requirements are met.




                                               ii
BUREAU COMMENTS

Regarding the $1,435,000 that was not awarded in accordance with the grant terms, the Bureau
indicated that most of the deficiencies identified in the grants to sampled awardees have been
corrected and gave the status of those that were still outstanding. Regarding two awardees who
had defaulted on Federal loans, the Bureau said that CMS had approved a change in program
guidelines that allowed the Bureau to award funds to individuals with defaulted loans if it had
documentation showing that the debts had been satisfied. The Bureau also indicated that it was
continuing to review the files of awardees who were not part of our sample, taking corrective
actions as appropriate, and working closely with CMS officials to guarantee that it adheres to all
grant guidelines.

The Bureau’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

The Bureau provided no documentation to support the corrective actions it refers to in its
response, nor did it provide evidence that CMS approved a change in the grant terms allowing
the Bureau to award funds to two awardees who had defaulted on Federal loans. Because we
have no supporting evidence from the Bureau, we have not revised our findings or
recommendations.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              The Grant .............................................................................................................1
              The Bureau...........................................................................................................1
              Applicant Awards ................................................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY.........................................................2
               Objectives ............................................................................................................2
               Scope....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................3

          POSSIBLE IMPROPER SIGNATURES ON PRACTITIONER CONTRACTS...........4

          GRANT FUNDS NOT AWARDED IN ACCORDANCE WITH THE
            GRANT TERMS .......................................................................................................4
              Ineligible Awardees .............................................................................................4
              Awards Made Without Determining Eligibility ..................................................5

          RECOMMENDATIONS.................................................................................................7

          BUREAU COMMENTS .................................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................8

OTHER MATTER.....................................................................................................................8

          GRANT AWARD TRACKING SYSTEM NOT ALWAYS CURRENT ......................8

APPENDIXES

          A: SAMPLE DESCRIPTION

          B: SAMPLE ESTIMATES

          C: AWARDS NOT IN ACCORDANCE WITH THE GRANT TERMS

          D: BUREAU COMMENTS




                                                                    iv
                                            INTRODUCTION

BACKGROUND

As authorized by section 6201(a)(4) of the Deficit Reduction Act of 2005, the Centers for
Medicare & Medicaid Services (CMS) awarded the Louisiana Department of Health and
Hospitals, Bureau of Primary Care and Rural Health (the Bureau), a Professional Workforce
Supply Grant (the grant) to restore access to health care in communities impacted by Hurricane
Katrina. The $50 million grant covers the period March 1, 2007, through September 30, 2012.

The Grant

The grant provides for the distribution of funds for (1) retaining physicians and other licensed
health care professionals furnishing services in the Greater New Orleans Health Professional
Shortage Areas (HPSA) 1 of Orleans Parish, Plaquemines Parish, St. Bernard Parish, and certain
parts of Jefferson Parish (which make up Region One) 2 and (2) recruiting such licensed
professionals to provide health care services within those HPSAs.

Pursuant to the terms of the grant, funds are to be distributed in one-time payments to individual
practitioners based on the incentive options they choose. The incentives offered are payments
for student loans, of malpractice insurance premium expenses, for contract execution (sign-on
bonuses), of income guarantees, of health information technology (HIT) continuing education
expenses, and of relocation expenses. Practitioners may choose more than one incentive option
and receive a payment not to exceed the limits set forth in the grant for each practitioner type.
The limits range from a maximum of $10,000 for a physical therapy assistant to $110,000 for a
physician. Interested practitioners are required to submit applications for funding and sign
contracts agreeing to a 3-year term of service in Region One.

The Bureau is required to submit to CMS annual financial status reports and progress reports, as
well as a final report after the grant period ends.

The Bureau

The Bureau administers the grant. The Bureau’s mission is to improve the health status of
Louisiana residents in rural and underserved areas. The Bureau works to support effective
clinical practices and health care organizations and to recruit and retain primary medical health
care providers.



1
 HPSAs have shortages of primary medical, dental, or mental health care providers and may be geographic (county
or service area), demographic (low-income population), or institutional (comprehensive health center, federally
qualified health center, or other public facility).
2
 Region One is defined by the Louisiana Department of Health and Hospitals. All of Orleans, Plaquemines, and
St. Bernard Parishes were designated HPSAs for primary care, dental, and mental health care. Although all of
Jefferson Parish was designated as an HPSA for mental health care, only certain zip codes of the parish were
designated as primary care and dental HPSAs.


                                                       1
Applicant Awards

For the period March 1 through December 31, 2007, the Bureau awarded $32.6 million in grant
funds to 908 awardees and distributed $10.6 million of the $32.6 million to 208 awardees. Of
the $32.6 million in grant funds awarded, $20.6 million was for retention and $12.0 million was
for recruitment.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine (1) whether the Bureau awarded funds in accordance with the
grant terms and (2) the amount of grant funds distributed to awardees.

Scope

The Bureau provided us with a spreadsheet of 2007 applicant awards created from its grant
award tracking system. The spreadsheet showed that the Bureau had awarded $27,434,330 in
grant funds during the period March 1 through December 31, 2007. We used this spreadsheet to
select a stratified statistical sample of 100 applicants who were awarded grants that totaled
$5,327,497. For all of our sample items, we determined whether the Bureau had documentation
to support the decision to award grant funds. We also determined from the State’s accounting
system the distributions that had been made to awardees as of February 28, 2008.

We accepted the Bureau’s assertion that the information in the grant award tracking system was
complete. However, after we selected the sample and began fieldwork, the Bureau discovered
that there were an additional 119 awardees who were not included in the spreadsheet because
they were never entered into its tracking system. These additional 119 awardees and their
awards, which totaled $5.2 million, were not available to be included in the sampling frame. In
total, the Bureau actually awarded $32.6 million to 908 awardees during our audit period. (This
issue is discussed in the “Other Matter” section.)

We did not review the Bureau’s overall internal control structure. We limited our review to
obtaining an understanding of the policies and procedures the Bureau used to award and
distribute grant funds. Additionally, we did not review the Bureau’s administrative costs, for
which the grant authorized $1.2 million, or the Bureau’s procedures for handling any advance
payments of grant funds that the Bureau may have received. Finally, we did not review the
contracts between the practitioners and the Bureau because they were signed after the grant
award determination process was completed.

We conducted our fieldwork at the Bureau’s office in Baton Rouge, Louisiana.




                                                2
Methodology

To accomplish our objectives, we:

          reviewed applicable Federal laws, regulations, and guidance;

          reviewed the grant requirements;

          reviewed the Bureau’s policies and procedures related to the grant;

          obtained a spreadsheet listing the grant awardees for the period March 1 through
           December 31, 2007, created from the Bureau’s grant award tracking system;

          selected, as detailed in Appendix A, a stratified random sample of 100 of these awardees;

          reviewed the Bureau’s files for each sampled awardee;

          interviewed Bureau management officials; and

          estimated, based on the sample results, the number of applicants not awarded grants in
           accordance with the grant terms and the amount of grants not awarded in accordance with
           the grant terms, as shown in Appendix B.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                 FINDINGS AND RECOMMENDATIONS

We are unable to express an opinion on $25,999,330 that the Bureau awarded during the period
March 1 through December 31, 2007, because we discovered after our fieldwork was complete
that practitioner contracts may have been improperly signed. Apart from the possibility of
improper signatures, we found that, of the $5.3 million the Bureau awarded to 100 sampled
awardees during the period March 1 through December 31, 2007, $1,435,000 was not awarded in
accordance with the grant terms to 20 awardees. 3 The Bureau awarded grants of:

          $195,000 to 3 ineligible awardees and

          $1,240,000 to 17 awardees without ensuring that they were eligible to receive the awards.
           (See Appendix C for details of these errors.)


3
    For some awardees, the Bureau did not award funds in accordance with the grant terms for more than one reason.



                                                           3
These errors occurred because the Bureau did not have policies and procedures or did not follow
its existing policies and procedures to ensure that applicants were eligible to receive the grant
funds.

At the time of our audit, not all awardees had received grant funds. Of the $5.3 million in our
sample, $2.2 million had been distributed as of February 28, 2008. From this amount, the
Bureau had distributed to 12 awardees a total of $945,000 in awards that were not made in
accordance with the grant terms.

Based on our sample results, we estimated that the Bureau did not award $5,813,418 of the total
of $27.4 million in grant funds to 85 awardees in accordance with the grant terms for the period
March 1 through December 31, 2007.

POSSIBLE IMPROPER SIGNATURES ON PRACTITIONER CONTRACTS

After we completed our fieldwork, we discovered that some contracts between practitioners and
the Bureau may have contained improper signatures. Bureau officials stated that, on some
contracts, one or more former Bureau employees may have signed practitioners’ names and/or
the name of the undersecretary of the Louisiana Department of Health and Hospitals.

If the reports of improper signatures are correct, other grant documents that were within the
scope of our audit, such as the practitioners’ applications for funding, may also contain improper
signatures. We plan to perform additional audit work that will include contract signature
verification.

Because of the possibility of improper signatures, we are not able to express an opinion on
$25,999,330 of grant funds that the Bureau awarded during our audit period.

GRANT FUNDS NOT AWARDED IN ACCORDANCE WITH THE GRANT TERMS

The grant terms require that the Bureau award funds only to U.S. citizens employed in facilities
in Region One HPSAs that offer sliding scale fees or free care to low-income, uninsured patients.
Additionally, funds are not to be awarded to those who were already practicing in Louisiana
HPSAs outside of Region One or to those who had had Federal debts written off as uncollectible.
The grant terms also require that the Bureau award funds only to those licensed to practice in
Louisiana or with license applications pending there. Applicants were required to provide
documentation for incentive options they selected, including a letter of intent or signed contract
if they opted for a contract execution payment.

Ineligible Awardees

Unlicensed Awardees

The grant terms require that the Bureau award grant funds only to applicants licensed to practice
in Louisiana by the appropriate licensing agency or with applications for a license pending there.
The Bureau awarded funds to two applicants who were not licensed and did not have license



                                                4
applications pending in Louisiana. The Bureau requested that all applicants submit a copy of
their licenses. Several applicants did not submit copies of their licenses, but we were able to
independently verify licenses for all but the two unlicensed applicants. We provided the names
of the two awardees to Bureau officials, and they agreed that the two were not licensed and did
not have license applications pending in Louisiana. The Bureau awarded and distributed
$165,000 to these two awardees because it did not follow its policies and procedures for
verifying that applicants were appropriately licensed before awarding them grant funds.

Awardee Practicing in Another Louisiana Health Professional Shortage Area

The grant terms require that the Bureau award grant funds only to applicants not already
practicing in Louisiana HPSAs outside of Region One. This requirement is meant to prevent the
recruitment of medical personnel from another area already designated as having a shortage of
primary care, dental, or mental health providers. The Bureau awarded funds to an applicant
whose application indicated that she was working in an HPSA outside of Region One. As of
February 28, 2008, the Bureau had awarded her $30,000 but had not yet distributed the award.
The Bureau made the award because it did not have policies and procedures to ensure that
applicants were not already practicing in Louisiana HPSAs outside of Region One.

Awards Made Without Determining Eligibility

In addition to awarding grants totaling $195,000 to the 3 ineligible awardees, the Bureau
awarded $1,240,000 to 17 awardees without ensuring that the terms of the grant had been met.
At the time of our fieldwork, the Bureau had distributed $780,000 to 10 awardees. For some
awardees, the Bureau incorrectly awarded grants for more than one of the reasons below.

United States Citizenship Status Not Obtained

The grant terms require that the Bureau award funds only to U.S. citizens, and the application
asked whether the applicant was a U.S. citizen or national. Applicants were required to provide
all information and documentation requested on the application form. The Bureau relied on the
applicants’ responses. The Bureau awarded funds to five applicants who did not respond to the
citizenship question on their applications, and the Bureau did not follow up to determine their
citizenship status because it did not have policies and procedures for verifying citizenship.

Employment in Region One Health Professional Shortage Areas Not Verified

The grant terms require that the Bureau award funds only to health care professionals practicing
in facilities located in Region One HPSAs. The Bureau had procedures in place to ensure that
these requirements were met, such as obtaining employment verification letters and checking the
facilities’ addresses. However, the Bureau awarded funds to five individuals without performing
those verification procedures.




                                                5
Discount Fee Schedule Policies Not Verified

The grant terms require that the Bureau award grant funds only to applicants practicing at a
facility that provides a sliding fee scale for the uninsured as well as free care for those unable to
pay. Practitioners were required to submit documentation showing that sliding fee scales were
offered. The Bureau awarded funds to eight applicants without verifying that they were
practicing at facilities that offered sliding fee scales because it did not have policies and
procedures for verifying that awardee practice sites offered sliding fee scales.

Defaulted Education Loans

The grant terms require that the Bureau award grant funds only to applicants who had no Federal
debts written off as uncollectible or any Federal service or payment obligation waived. The
Bureau awarded funds to three applicants (one of whom was unlicensed) who indicated on their
applications that they had defaulted on education loans. The Bureau did not follow up to
determine whether the loans were Federal obligations, which would have disqualified the
applicants. The Bureau did not have policies and procedures for verifying that awardees did not
have any Federal obligations written off as uncollectible or waived.

Contract Execution Awarded Without Letters of Intent or Contracts

The grant terms require that the Bureau award grant funds to applicants who applied for a
contract execution payment only if they had provided letters of intent or recently signed
employment contracts from Region One employers. The Bureau awarded funds to five
applicants (one of whom was unlicensed) without ensuring that they had signed letters of intent
or contracts with eligible Region One employers because the Bureau did not have policies and
procedures for verifying whether applicants had provided letters of intent or signed employment
contracts.

Lack of Documentation To Support Costs To Be Paid With Grant Funds

The grant terms require that the Bureau award funds to applicants applying for grants to pay for
education loans, malpractice premiums, and HIT training costs only if they furnished
documentation to support the amounts to be paid with grant funds, including, as appropriate:

    documentation showing the current principal balance of education loans,

    a past bill verifying the amount of the malpractice premium for 1 year’s coverage, and

    estimates of HIT training expenses.

The Bureau awarded funds to five applicants (one of whom was unlicensed) for education loans,
malpractice premiums, and HIT training expenses without documentation of the costs to be paid
with grant funds because it did not have policies and procedures for verifying that the applicants
documented costs to be paid with grant funds.




                                                  6
RECOMMENDATIONS

For the $1,435,000 of grant awards that were not awarded in accordance with the grant terms, we
recommend that the Bureau cancel any remaining undistributed awards and credit the grant
account for distributed awards:

      For the $195,000 in grant funds awarded to three ineligible awardees, we recommend that
       the Bureau:

              o credit the grant account for the $165,000 in awards it distributed to two of the
                three and

              o cancel the undistributed award for $30,000 it made to one of the ineligible
                awardees or credit the $30,000 to the grant account if the Bureau has
                distributed this award.

      For the $1,240,000 in grant funds awarded to the 17 awardees whose eligibility was not
       verified, we recommend that the Bureau:

           o credit the grant account for the $780,000 it awarded and distributed to 10
             individuals and

           o cancel the undistributed awards related to the $460,000 it awarded to 7
             individuals and credit the grant account for the distributed awards.

For the remaining 686 awardees in our sampling frame, the 119 awardees who were not in our
sampling frame, and all awards that were made subsequent to our audit period, we recommend
that the Bureau determine:

      whether awardees were eligible so that undistributed awards to ineligible awardees can be
       cancelled and distributed awards to ineligible awardees can be credited to the grant
       account and

      whether funds were awarded in accordance with grant terms so that undistributed awards
       that were not made to awardees in compliance with grant terms can be cancelled and
       distributed awards that were not made to awardees in compliance with grant terms can be
       credited to the grant account.

Additionally, we recommend that the Bureau strengthen its policies and procedures to ensure that
all of the grant’s eligibility requirements are met.

BUREAU COMMENTS

Regarding the $1,435,000 that was not awarded in accordance with the grant terms, the Bureau
indicated that most of the deficiencies identified in the grants to sampled awardees have been
corrected and gave the status of those that were still outstanding. Regarding two awardees who


                                               7
had defaulted on Federal loans, the Bureau said that CMS had approved a change in program
guidelines that allowed the Bureau to award funds to individuals with defaulted loans if it had
documentation showing that the debts had been satisfied. The Bureau also indicated that it was
continuing to review the files of awardees who were not part of our sample, taking corrective
actions as appropriate, and working closely with CMS officials to guarantee that it adheres to all
grant guidelines.

The Bureau’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

The Bureau provided no documentation to support the corrective actions it refers to in its
response, nor did it provide evidence that CMS approved a change in the grant terms allowing
the Bureau to award funds to two awardees who had defaulted on Federal loans. Because we
have no supporting evidence from the Bureau, we have not revised our findings or
recommendations.

                                       OTHER MATTER

GRANT AWARD TRACKING SYSTEM NOT ALWAYS CURRENT

The information in the Bureau’s grant award tracking system was not always current. Copies of
the tracking system were kept and updated at different office locations. Sometimes the Bureau
adjusted award amounts after the initial award determinations were made. However, the Bureau
did not always update these changes in the tracking system. Because the Bureau did not always
keep the data current, the Bureau did not always know how much of the grant funds had been
awarded to whom, the amounts awarded for each of the incentive options, and the funds
available. Officials stated that the Bureau did not have a common server available to maintain a
centralized grant award tracking system.




                                                8
APPENDIXES
                                                                                     Page 1 of 2


                          APPENDIX A: SAMPLE DESCRIPTION

POPULATION

The sampling population was practitioner grant awardees who were awarded grant funds from
March 1 through December 31, 2007, to furnish services in the Greater New Orleans Health
Professional Shortage Area (HPSA).

SAMPLING FRAME

We obtained from the Louisiana Department of Health and Hospitals, Bureau of Primary Care
and Rural Health (the Bureau), a spreadsheet from its grant award tracking system listing 789
awardees who were awarded grants between March 1 and December 31, 2007. Three of the
grant awardees did not accept the award and were removed from the sampling frame. The
remaining 786 applicants were awarded grant awards totaling $27,434,330. The amounts
included in the sampling frame are from the original spreadsheet the Bureau provided.

SAMPLE UNIT

The sample unit is a practitioner grant awardee.

SAMPLE DESIGN

We used stratified random sampling, defining each stratum by award amount, as shown below.

       Stratum One: $70,000 and more—113 awardees

       Stratum Two: $20,000 to $69,999—207 awardees

       Stratum Three: Less than $20,000—466 awardees

SAMPLE SIZE

We selected 100 awardees with grant award dates between March 1 and December 31, 2007.
We randomly selected 33 from stratum one and stratum three and 34 from stratum two.

SOURCE OF RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services, RAT-STATS statistical sampling software.

METHOD OF SELECTING SAMPLE ITEMS

Each sample unit (practitioner grant awardee) in the sampling frame was numbered sequentially,
1 through 786. We generated 33 random numbers ranging from 1 through 113 for stratum one,
34 random numbers ranging from 114 through 320 for stratum two, and 33 random numbers
                                                                                     Page 2 of 2


ranging from 321 through 786 for stratum three. After generating the 100 random numbers, we
selected the corresponding frame items.

TREATMENT OF MISSING SAMPLE ITEMS

If the support for a sample item was not available, the award amount was treated as unallowable.

ESTIMATION METHODOLOGY

We used RAT-STATS to estimate the number of practitioner grant awardees that should not
have been awarded the grant funds and to estimate the grant amount that was incorrectly
awarded. Because only 31 of the 100 sampled items had been distributed as of February 28,
2008, we did not estimate the dollar value of unallowable payments.
                         APPENDIX B: SAMPLE ESTIMATES

                                         Estimates
                  (Limits Calculated for a 90-Percent Confidence Interval)

                    Estimated number of applicants        Estimated percent of applicants
                   not awarded grants in accordance      not awarded grants in accordance
                           with grant terms                      with grant terms

Point estimate                    83                                 10.55%
Lower limit                       57                                  7.21%
Upper limit                      109                                 13.89%

Point estimate                    83
Number of incorrectly awarded
 grants from stratum 3             2
   Total                          85


                    Estimated amount of grants
                    not awarded in accordance
                         with grant terms

Point estimate             $5,783,418
Lower limit                $4,045,056
Upper limit                $7,521,780

Point estimate             $5,783,418
Amount of incorrectly
 awarded grants from
 stratum 3                    $30,000
   Total                   $5,813,418
                                                                                                    Page 1 of 3


          APPENDIX C: AWARDS NOT IN ACCORDANCE WITH THE GRANT TERMS

                                                                                                   Did Not
                                                                                     Did Not       Ensure
                                                                                    Follow Up      Contract
                                                               Did Not                With        Execution    Did Not Ensure
                        Awardee      Awardee                    Verify   Did Not    Applicant    Awardee Had    Costs To Be
                          Not       Practicing       U.S.      Employ-    Verify    Indicating    Letter of      Paid With
            Award       Licensed    in Another   Citizenship   ment in   Discount   Default on     Intent/      Grant Funds
Sample    Incorrectly      in        Louisiana   Status Not    Region      Fee      Education    Employment        Were
 Item     Distributed   Louisiana      HPSA       Obtained     1 HPSA    Schedule     Loans       Contract      Documented
      1
      2
      3      YES                                                          YES
      4
      5      YES                                                                      YES           YES
      6
      7                                                         YES
      8
      9
     10      YES                                                          YES                       YES            YES
     11      YES          YES                                                                       YES            YES
     12      YES                                    YES
     13
     14
     15
     16
     17
     18
     19      YES                                                                                    YES            YES
     20
     21
     22                                                                   YES         YES
     23      YES                                                          YES
     24
     25                                                                   YES
     26
     27
     28
     29
     30
     31
     32
     33
     34
     35
     36                                             YES
     37
     38
     39
                                                                                                    Page 2 of 3

                                                                                                   Did Not
                                                                                     Did Not       Ensure
                                                                                    Follow Up      Contract
                                                               Did Not                With        Execution    Did Not Ensure
                        Awardee      Awardee                    Verify   Did Not    Applicant    Awardee Had    Costs To Be
                          Not       Practicing       U.S.      Employ-    Verify    Indicating    Letter of      Paid With
            Award       Licensed    in Another   Citizenship   ment in   Discount   Default on     Intent/      Grant Funds
Sample    Incorrectly      in        Louisiana   Status Not    Region      Fee      Education    Employment        Were
 Item     Distributed   Louisiana      HPSA       Obtained     1 HPSA    Schedule     Loans       Contract      Documented
     40
     41
     42
     43
     44
     45
     46                               YES
     47
     48
     49
     50
     51
     52                                             YES
     53
     54
     55
     56
     57
     58
     59
     60
     61      YES                                                          YES                       YES
     62                                                         YES       YES
     63
     64      YES                                                YES       YES                                      YES
     65      YES                                                YES                                                YES
     66      YES          YES                                                         YES
     67
     68
     69
     70
     71
     72
     73
     74
     75
     76
     77
     78
     79
     80
                                                                                                    Page 3 of 3

                                                                                                   Did Not
                                                                                     Did Not       Ensure
                                                                                    Follow Up      Contract
                                                               Did Not                With        Execution    Did Not Ensure
                        Awardee      Awardee                    Verify   Did Not    Applicant    Awardee Had    Costs To Be
                          Not       Practicing       U.S.      Employ-    Verify    Indicating    Letter of      Paid With
            Award       Licensed    in Another   Citizenship   ment in   Discount   Default on     Intent/      Grant Funds
Sample    Incorrectly      in        Louisiana   Status Not    Region      Fee      Education    Employment        Were
 Item     Distributed   Louisiana      HPSA       Obtained     1 HPSA    Schedule     Loans       Contract      Documented
     81
     82
     83      YES                                    YES
     84
     85
     86                                             YES         YES
     87
     88
     89
     90
     91
     92
     93
     94
     95
     96
     97
     98
     99
    100
 Total        12           2            1            5            5         8           3             5              5
                                                                                                                         Page 1 of2


                            APPENDIX D: BUREAU COMMENTS 





Bobby Jindal                                                                                                            Alan Levine
 GOVEfu'iOR                                                                                                             SECRETARY

                                         ~tate of 1Loui~iana
                                     Depanment of Health and Hospitals
                                     Bureau of Primary Care and Rural Health



       October 29, 2009


       Ms. Patricia \'(Iheeler
       Regional In spector General for Audi t Services
       Office of the Inspector General
       Office of Audit Services
       1100 Commerce, Room 632
       Dallas, TX 75242


       Dear Ms. Wheeler,

       Staff o f the Bureau o f Primary Care and Rural Health has reviewed the files of the 20
       ind ividuals identified in your audit sample. Of those 20 cases, our reco rds indicate th at 18
       awardees were paid a total o f $1,355,000. The remaining two awardees, [Qtai ing $140,000, did
       not receive final approval and payment for their service contraCts.

       During the review conducted by staff, the majority of the deficiencies noted in your initial
       draft report were corrected since most of tbe findings showed a lack of documentation
       required to qualify for the grant. All of tbe deficiencies noted on tbe repon have bee n
       co rrected with the following exceptions:

       1146) 530,000 was awarded to a nurse who was practicin g in another heal th professional
       shortage area (HPSA) and moved to New Orleans. Although th is recipient is fulfilling the
       te.rms of the contract and her obligations to the program, the program is in the process of
       consu lting with the department's Burea u of Legal Services to determ in e the act ioD that shou ld
       be taken regard ing this individual. Once we receive an opini on fro m th e Bureall of Lega l
       Services, we will confer with the GNOHSC program's CMS project officer, Demetria Carter.

       #5, II , and 22) A toral of 5330,000 was awarded to these individuals. Program staff is in the
       process of collecting the necessary documentation ro bring these awardees into compliance.
       Two o f th ese individual s were given awards even though rhey h:ld previous ly de f.mlted on
       fed eral loans, and one had not supplied infor mation documentin g his expenses due to a
       misunderstanding of the contractual obli gations.

       SiDce the original guidelines of the program were approved, eMS has approved a change in
       program guidelines that allows staff to award funds to ind ividu als wh o have cleared up an y

                         Bienville Bulldmg · 628 N. ~ " 5ITeet • P.O. Bolt 311 8 ' B~lun Rouge. LoutiJ~n~ 7C8:!I·jI18
                                   Phone I, 225/Hl·'JSIJ · F.uI,22S/ Hl·S8J'I · 1I'ljrtW.DflfI LA. GOt
                                                    ~ An   Eq!cl OpponUDII}' Emplo}'n~
                                                                                                             Page 2 of2




      deficienci es regarding loans th at were in defaul t just as lo ng as pro per docu mentation is
      provided. Scaff bas been assured by these two grantees that rhe debts have been satisfied nod is
      waiting on documentation ve rifying this information.

      The physician who was con fused as to the obligations of his contract will be issued an
     amendment to his original contract. H e had been to ld verball y and in w rit in g by the previoll s
     progra m coordinator that hi s terms fo r expense documentat ion wou ld nOl be rhe same as in
     his contract, and he should have been issued an amended contract at tha t time.

     Bu reau of Primary Care and Rural Health staff has continued to work to st rengthen program
     procedures to ensure that all grant eligibility requirements afe me L In :lddition to a more
     thorough review of each application and fil e, since April 2009, staff has been meet in g with
     eac h applicant individually to rece ive an o ffi cial signature 0 0 t he fin al co ntract. Duri_ng these
     meetings. there is a thorou gh d iscussion o n the graot"with each awardee 10 ensure full
     comprehension of the scope of the gram and the individual's obligations.

     Staff also has continu ed to rev iew the files of all oth er grantees to ensl1re that all necessary
     documentati on is included in cJle fil es. \'lfhen a deficiency is noted, corrective .lction is taken.
     Addi tionally, program staff is working closely wi th eMS officials to guarantee the Bureau o f
     Primary Care and Rural H ealth adheres to all grant guidelines.

     If YO ll have any furth e r questions andlor con cer ns, p lease do n ot h esit.lte to co nuct me at
     (225) 342-2657 or D on Parker, GNOHSC Program Manager at (225) 342-936 1 or 

     Donald.Parker@LA.GOV. 




    ;r:1r'PJJ) ~
c..-c;;rrelda D avis
     Director
